No. 19-

 

IN THE
Supreme Court of the United States

ACTAVIS LABORATORIES FL, INC.,

Petitioner,
v.

NALPROPION PHARMACEUTICALS, LLC

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Federal Circuit

CERTIFICATE OF SERVICE

I, William M. Jay, counsel of record and a member of the bar of this Court,
certify pursuant to Supreme Court Rules 29.3 and 29.5 that I have, this 13th day of
March 2020, served three copies of the Petition for a Writ of Certiorari upon each
party separately represented in this proceeding by causing the copies to be
delivered by first-class mail to counsel of record at the address listed below:

Dominick A. Conde

VENABLE LLP

1290 Avenue of the Americas

New York, NY 10104
dconde@venable.com
In addition, pursuant to Supreme Court Rule 29.3, I have caused electronic

copies of all documents to be filed with the Clerk and served on counsel of record at

the email address listed above.

I further certify that all persons required to be served have been served.

March 13, 2020

William M. Jay
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
wjay@goodwinlaw.com
(202) 346-4000

  

 

Counsel for Petitioner
